'B

-No.

ijllifm B |
IN THE
SUPREME COURT OF THE UNITED STATES

ADAM L. COLEMAN

- PETITIONER

V.S.
EPHRAIM MCDOWELL REGIONAL MEDICAL CENTER -RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
KENTUCKY SUPREME COURT
PETITION FOR WRIT OF CERTIORARI

FILED
NOV 1 3 2020
§nplRFEMEFCOURTLUlSK

ADAM L. COLEMAN
402 WEST BROADWAY APT #1
DANVILLE, KY 40422
PHONE: (859)-691-1560

QUESTION^) PRESENTED

I.

Can a state pass legislation that jeopardizes legal representation of a
Wrongful Death or Medical Malpractice asserted claim that would
otherwise be guaranteed to any U.S. citizen under the Equal Protections
Clause found in Amendment XIV?

II.

Can a court appointed administrator or executor of the estate represent a
Wrongful Death claim while acting “Pro se” if he or she is the only heir
entitled to the estate, and then should a court be made to determine so
case by case for who is the beneficiary as it is not known?

III.

Where state legislation enacts a new law with considerable amounts of
constitutional challenges present, is there an exception to an
Unauthorized Practice of Law - where it is “allowed” to preserve statute
of limitations, if otherwise the same person who is statutorily allowed to
prosecute a wrongful death action files suit?

IV.

Should a person be able to recover for Wrongful Death damages past the
age of majority?

V.

When a clearly established constitutional right is recognized to be violated
by the determination of such state supreme court by prior former case,

and its citizen presents such a decision from a lower court to a court of appeals,
should that verdict be reversed regardless of legal representation, and should it only
be based upon a valid U.S. citizenship that everyone is protected by the Equal
Protection Clause as well as those fundamentally “given” and non-disputable U.S.
Constitutional rights?
VI.

If other U.S. States recognize a cause of action for recovery of wrongful death

past the age of majority, should not all the states in their adoption of their own
state constitution be included such right; especially whereas state age
determinations defeat its purpose by undermining the relationship at any age as
one that is not “harmed” or “deprived of’: Loss of Companionship, Loss of Financial
Support or even love itself?
VII.

Where a state’s statute does not specifically state otherwise to its designated

beneficiaries and administrator of the estate, that one must obtain a lawyer to
prosecute a Wrongful Death claim rather than a(n) administrator can prosecute a
Wrongful Death action; should a s state statute be more precise and clear to even
the common citizen?
VIII. If all U.S. States were allowed to determine age distinctions for what is to be
considered age of majority, then by so being associated, Wrongful Death would be a
pleasure of those wrongdoers with no punishment. Should a state be excluded from
making age - CONTINUED ON NEXT PAGE

and its citizen presents such a decision from a lower court to a court of appeals,
should that verdict be reversed regardless of legal representation, and should it only
be based upon a valid U.S. citizenship that everyone is protected by the Equal
Protection Clause?

VI. If other U.S. States recognize a cause of action for recovery of wrongful death
past the age of majority, should not all the states in their adoption of their own
state constitution be included such right; especially whereas state age
determinations defeat its purpose by undermining and relationship at any age as
one that is not “harmed” or “deprived of’: Loss of Companionship, Loss of Financial
Support or even love itself?

VTI. Where a state’s statute does not specifically state otherwise to its designated
beneficiaries and administrator of the estate, that one must obtain a lawyer to
prosecute a Wrongful Death claim rather than a(n) administrator can prosecute a
Wrongful Death action; should a state statute be more precise and clear to even the
common citizen?

VIII. If all U.S. States where allowed to determine age distinctions for what is to be
considered the age of majority, then by so being associated, Wrongful Death would
be a pleasure of those wrongdoers. Should a state be excluded from making age

determinations for Wrongful Death, and if not may it rather focus its emphasis on
the relationship to the decedent that those specially identified as beneficiaries or
administrator of the estate had to the decedent?
IX. Should a state court avoid passing a new precedent that is otherwise
presumptively discriminatory against its citizens of that state by assuming that
each estate has more than one beneficiary available, without first determining by a
matter of law to those beneficiaries to whom they may be entitled, or to those who
choose to waive their rights to an estate?

LIST OF PARTIES
All parties are as listed on the cover-page and are as follows:
PETITIONERADAM L. COLEMAN
RESPONDENT
EPHRAIM MCDOWELL REGIONAL MEDICAL CENTER

RELATED CASES
CASE NO. 18-CI-00074 - BOYLE CIRCUIT COURT / STATE TRIAL COURT
CASE NO. 2019-CA-0577 - KENTUCKY COURT OF APPEALS
CASE NO. 2019-SC-0457 - KENTUCKY SUPREME COURT / STATE COURT

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A -ORDER OF KENTUCKY SUPREME COURT DENYING REVIEW
APPENDIX B -DECISION OF KENTUCKY COURT OF APPEALS
APPENDIX C -DECISION OF BOYLE CIRCUIT / STATE TRIAL COURT
APPENDIX D- PETITIONERS EVIDENCE IN SUPPORT OF WRIT

r

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

COMMONWEALTH OF KENTUCKY, CABINET FOR HEALTH AND FAMILY SERVICES,
EX REL.... 566 S.W.3d 202 (Ky. 2018) pgs. (6, 10)
Perkins v. Northeastern Log Homes 808 S.W.2d 809 (1991) pg. (7)
Howard Frank v. Superior Court ofAriz., 150 Ariz. 228, 722 P.2d 955 (1986) pg. (9)
Harper v. Tipple, 21 Ariz. 41, 44, 184 P. 1005, 1006 (1919) pg. (ll)
Giuliani v. Guiler, Ky., 951 S.W. 2d 318 (1997) pg. (ll)
Stiglitz v. Schardien 40 S.W. 2d pg. (12)

STATUTES AND RULES

KRS 411.130
RCA 3.020
KRS 216C
SCR 3.460

OTHER:

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
For cases from state courts:
The opinion .of the highest state court to review the merits appears at
Appendix/\| O to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
A
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix /\
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

STATEMENT OF THE CASE

In 2017, Petitioner Adam L. Coleman filed a wrongful death action for
damages related his late mother Linda Coleman. Before knowingly been made
aware of Kentucky’s new legislative law that had been passed earlier on in that
year (KRS 216C). The named petitioner then had to file “pro se” because of the
recent constitutional challenge that was on appeal at that time (COMMONWEALTH
OF KENTUCKY, CABINET FOR HEALTH AND FAMILY SERVICES, EX REL.... 566 S.W.3d
202 (Ky. 2018). KRS 216C established what was known as the Kentucky Medical
Review Board Panels. The Medical Review Board Panels also formerly known as the
MRP Act, required any Medical Malpractice asserted claims to first forego a series
of procedures before a lawsuit could be fded in court. Mainly those reasons where
why the Kentucky Supreme Court deemed them unconstitutional pursuant to
Section 14 of Kentucky’s Constitution for the Right to a Speedy Trial and the Right
to Due Process without unnecessary delays. For the Medical Review Panels process,
one must come up with at least $3000.00 to pay for the panelist serving to hear the
complaint. The statute itself also failed to disclose, when an issued “opinion” would
have to be given if at all.
Understanding the type of evidence that would be given by a Medical Review
Board Panel, the evidence itself in a form of an opinion is just that of an opinion and
mere so a waste of time to its respected judges and those who were and are in the
current the medical category of being considered “Medically Frail”. With the

Medical Review Board Panels not having stated an official timeframe for an opinion
to be issued, that clearly in itself “could” violate a person’s statute of limitations all
at the discretion of its panelist and the affordability to even come up with $3000.00
to even file the complaint to being with.
The statute of limitations in the state of Kentucky is one-year from the date
of death to file action for “Wrongful Death”. I ask even myself, is even one-year long
enough time to gather evidence about something so tragic as the two-words
combined, let alone forgetting the fact of death and grieving to pursue such claim.
Having known across the state of Kentucky about these jeopardizing factors
of the Medical Review Board Panels, evidence suggests and can be proven that
attorneys in the field of Medical Malpractice and Wrongful Death where more
probable to not take on cases at the time because of former case that was on appeal
challenging constitutionality. When seeking an answer, to why and how I could get
any help at all if even attorneys where unlikely to help due to state legislative
errors in the enactment of MRP Act; it became but one answer and one job of myself
to pursue.
Kentucky gives the authority to prosecute a “Wrongful Death” claim under
KRS 411.130. That power is solely invested in the administrator or executor of the
estate to do so, however the statute is vague in itself and mentions nothing about
the requirements needed if any for representation of any legal existing claim.
Perkins v. Northeastern Log Homes 808 S.W.2d 809 (1991) would reason that:

“In drafting our constitutional protections in §§14, 54 and 241, our founding fathers
were protecting the jural rights of the individual citizens ofKentucky against the
power of the government to abridge such rights, seeakin a to their rights as they
would be commonly understood bv those citizens in any year, not just in 18911

BACKGROUND
Adam L. Coleman’s mother the named decedent Linda Coleman, underwent
hospitalization at Ephraim McDowell Regional Medical after being admitted for
“Hospital Acquired Pneumonia” in 2017. After having been admitted she obtained
bedsores, both the petitioner and his other sibling Ashley Coleman confronted
medical staff at Ephraim McDowell Regional Medical Center, but nothing was done
and the bedsores went untreated leading to Sepsis.
Both Adam and his sister Ashley Coleman both witnessed and saw the
negligence that took place. Both the petitioner and his sister at that present time
where college students. Each of us would take shifts sitting with our mother,
helping her when we could and advising her to press the “nurse help button” on her
bed, at times we needed sleep. There were times where we observed her to press it
three to four times and no one would come if at all sometimes.
After Linda, became septic it became evident that she was going to die and
needed to be transported to another Medical Facility to be made comfortable as
Ephraim McDowell Regional Medical Center continued to cause injuries. For
evidentiary purposes Ephraim McDowell Regional Medical Center never

documented any injuries that involved their facility or their medical staff. Luckily
the new medical facility that she was transported to UK Chandler HospitalLexington, KY documented the “bedsores” with pictures upon arrival via transport
by EMS. It was documented the exact location, size and measurement of the
bedsores she obtained from Ephraim McDowell Regional Medical Center. The rest
of the proof lay within her death certificate in the numerical list of the causes of
death which contained the first two causes as “pneumonia” and “sepsis”.
The decedent was just fifty-five at the time of death. It’s surreal to even
think, that a person could sustain such injuries from a hospital where the person
was both in the ICU- Intensive Care Unit and the Critical Care Unit and yet obtain
these types of injuries. All of these injuries related and caused by Ephraim
McDowell Regional Medical Center, were completely preventable.
REASONS FOR GRANTING THE PETITION
It should not only matter as a fact of principle as it should matter to the legal
proof that the events, injuries sustained, and death of the decedent is all substantial
and compelling. The evidence described has remained undisputed and unquestioned
throughout all Kentucky courts. For that reason alone, Federal Civil Procedure
Rule 56 should have applied. Furthermore, the basis of the petitioners’ appeal to the
Kentucky Court of Appeals was to request a re-decision of the lower court after the
Kentucky Supreme Court had deemed the Medical Review Board Panels
“unconstitutional” for their stated reasons. At that time and having had two-prior
Kentucky courts deem the MRP Act unconstitutional, it should have become evident

that any allowance of it in any court proceeding would ultimately violate any
person’s constitutional rights. This verdict should have been overturned due to
Ephraim McDowell Regional Medical Centers attempt in a lower-court to cause a
constitutional infringement of the petitioners rights. Ephraim McDowell Regional
Medical Centers motion to Hold, Boyle Circuit Court Case No. 18-CT00074 into
abeyance until compliance of the Medical Review Board Panels or until the
Kentucky Supreme Court deemed them “unconstitutional”, was the prime example
of what the Kentucky Supreme Court wanted to prevent from happening as stated
in their elaborate opinions published from the former Commonwealth, Cabinet fox
Health & Family Services, exrel. Meir v. Claycomb 566 S.W.3d202 (Ky. 2018) case.
In continuation of this case the Kentucky Supreme Court did not disclose
why it’s justices choose to grant the petitioners motion for discretionary review on
8/11/20 and then deny it on 8/12/20. What is evident alone is the argument on the
consideration of an “Unauthorized Practice of Law”. In granting to conditionally
review this writ of certiorari, the listed questions as mentioned above will directly
coincide with considerations of an unauthorized practice of law along with who may
and who may not be able to represent a decedent if legislative error should occur
with the potential to jeopardize legal representation known otherwise. Many
precedents have become before a court with questions in regards to recovery for
wrongful death past the age of majority, the most notable have been Howard Frank
v. Superior Court ofAriz., 150 Axiz. 228, 722 P.2d 955 (1986) citing-'

“It is irrelevant that parents are not entitled to the services of their adultchildren; they continue to enjoy a legitimate and protectable expectation of
consortium beyond majority arising from the very bonds of the family relationship.
Surely nature recoils from the suggestion that the society; companionship, and love
which compose Glial consortium automatically fade upon emancipation; whGe
common sense and experience teach that the elements of consortium can never be
commanded against a chGd’s will at any age. The fdial relationship, admittingly
intangible, is ill-defined by reference to the ages of the parties and ill-served by
arbitrary age distinctions. Some Glial relationships will be blessed with mutual
caring and love Gom infancy through death while others wiG be bereG of those
qualities Therefore, to suggest as a matter oflaw that compensable consortium
beains at birth and ends at the ase of eighteen is illosical and inconsistent with
common sense and experience. Human relationships cannot and should not be so
neatly boxed.
“The law does not Gy in the face ofnature, but rather acts in harmony with it.”Harperv. Tipple, 2lAriz. 41, 44, 184 P. 1005, 1006 (1919).
And further citing precedent in dissenting opinion Judge, Combs from
Kentucky stated the following:
“I dissent from the majority opinion as 1 beGeve that the loss of consortium of
an adult child is a logical andproper extension of the reasoning of Giuhani v.
GuGer, Ky., 951 S.W. 2d 318 (1997). Loss offinancial support needed by dependent
children was not the only factor considered in GiuGani. The deprivation oflove,

companionship, and affection was certainly a major component ofloss of consortium
claim weighed in that case. That loss is in no way mitigated by the fact that a child
has attained the age ofmajority. Indeed, the bond oflove estabhshed over a lifetime
ofassociation is only enhanced by the passing of time, rendering the loss perhaps
even more painful. I would recognize this natural extrapolation of Guiliani and
hold a claim for loss ofparent’s consortium by an adult child to be a cognizable
cause of action in Kentucky. ”
For the reason an unauthorized practice of law must be made an exception is
Stiglitz v. Schardien 40 S.W. 2d:
I.

“Citizens possesses political as well as pecuniary and personal
rights which may be subject of action to prevent operation of
unconstitutional legislation.”

II.

“Where legislative act infringes constitutional right of citizen
and taxpayer, and voter, he may invoke processes of court to
prevent performance of duty attempted to be imposed by such
void act.”

In Stiglitz v. Schardien 40 S.W. 2d it is known that a person does not have to
be of legal profession to bring forth any constitutional challenge to a pre­
existing law. It is a fundamental right and not one that should be taken
away. In further support is RCA 3.020 where the petitioner in this case has

not made known of held out to be a practicing attorney. No connection has been
made to verify that requirements of proof outside of opinion has tied petitioner to an
Unauthorized Practice of Law. As a final consideration of state identified
unauthorized practices of law the respondent has not and did not file
complaint/adversary opinion pursuant to SCR 3.530(6). Instead only the counsel for
the respondent has mentioned via previous court motions in an attempt to
intimidate the petitioner from proceeding otherwise.
CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted,

ADAM L. COLEMAN
DATE: 12/12/20

,4-jt i j (k^
NOTARY PUBLIC

■

tf'SSIONEXP'RES

